FEC -- Semiannual Report:  Executive Summary (9/96)
Federal Election Commission
Office of Inspector General -- Semiannual Report
Period ending September 30, 1996
If you require the entire printed version of this report, contact the Office of Inspector General, Federal Election Commission, 999 E Street, NW, Washington, DC 20463 or call Dorothy Maddox-Holland, Special Assistant, phone: (202) 694-1015, fax: (202) 501-8134, or e-mail: dmaddox@fec.gov.
Executive Summary
This report is submitted pursuant to the Inspector General Act of 1978, as amended, and includes a summary of the Office of Inspector General's activities for the period April 1, 1996 through September 30, 1996.
Two audits were completed and released during this reporting period.  An additional audit was started and is currently in the field work stage of the audit process.  The "Review of Commission Travel - Fiscal Year 1995" audit report was released in May.  The objectives of the audit were to:  1) ensure that adequate internal controls over travel activities were in place and operating effectively; 2) evaluate the Commission's use of travel funds for economy and effectiveness; and 3) evaluate the budgeting process of travel activities for proper management of commission funds.  Our review of the internal controls of commission travel activities resulted in three audit findings and recommendations for corrective action.
The other audit, "Compliance Audit of the Freedom of Information Act (FOIA) Calendar Year 1994" was released in June. The purpose of this audit was to determine if the FEC was in compliance with key administrative provisions of the Freedom of Information Act.  Four audit findings and recommendations were made to strengthen compliance with administrative procedures and reporting requirements.
A synopsis of both audit reports are contained in the Audit section of this report.